UNITED STATES OF AMERICA

FEDERAL TRADE COMMISSION
WASHINGTON, D.C. 20580

Office of the General Counsel

August 10, 2020
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
1 First St. N.E.
Washington, D.C. 20543
Re: No. 19-508, AMG Capital Management, LLC v. Federal Trade Commission &
No. 19-825, Federal Trade Commission v. Credit Bureau Center, LLC
Dear Mr. Harris:
To facilitate the orderly briefing of the above-captioned cases, the Federal Trade
Commission, the petitioners in No. 19-508, and the respondents in No. 19-825 respectfully
request that the Court realign the parties in No. 19-825 such that the respondents in that case
would follow the briefing schedule for petitioner and the Commission would file its brief on the
schedule for respondent. Counsel for all parties have agreed to the realignment.
In addition, the parties respectfully request that the Court extend the due dates for the
merits briefs and joint appendix in both cases as follows:
Top-side briefs and joint appendix (or joint motion to dispense with filing of joint
appendix): September 25, 2020
Bottom-side brief: November 30, 2020
Sincerely,
/s/ Alden F. Abbott
Alden F. Abbott
General Counsel
cc: Neal Katyal, Counsel of Record for Petitioners in No. 19-508
Jeffrey Lamken, Counsel of Record for Respondents in No. 19-825

